              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Management of the Workers’
Compensation Program at Department
of Energy Headquarters




DOE/IG-0769                                     June 2007
                                 Department of Energy
                                     Washington, DC 20585
                                        J u n e 29, 2007


MEMORANDUM FOR THE SECRETARY
                            4Z.c. *&>k??LdP
FROM:                    e g o        nedman
                          Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Management of the Workers'
                         Compensation Program at Department of Energy Headquarters"

BACKGROUND

The Federal Employees' Compensation Act (FECA) provides medical and salary benefits to
Federal civilian empIoyees who suffer work-related injuries or illnesses that prevent them from
working. The FECA program pays for medical expenses related to employees' injuries or
diseases, provides wage compensation until they can return to work, and covers vocational
rehabilitation.

The Department of Labor (Labor) administers the FECA program-allowing or denying claims,
paying benefits, and charging benefit costs back to a claimant's agency for reimbursement. The
Department of Energy bears the costs of the program and is responsible for providing Labor with
pertinent details to inform Labor's decisions about the merits of claims, monitoring the status of
the Department's workers' compensation recipients, and bringing employees back to work as
soon as appropriate. During the chargeback year of July 1,2005, through June 30, 2006, the
Department of Energy paid approximately $10.2 million in workers' compensation benefits, of
which $2.2 million comprised workers' compensation benefits paid to Headquarters employees.

The objective of the inspection was to determine whether the Department's Headquarters
workers' compensation program, which is managed by the Office of Human Resource Services,
Employee WorkLife Center, was managed effectively.

RESULTS OF INSPECTION

We concluded that the Headquarters workers' compensation program was not effectively
managed and that several aspects of the program needed improvement.

Specifically, we found that the Department had not:

           Maintained adequate records for many of the cases that we reviewed;

           Adequately monitored its long term cases;

           Promulgated written policies or procedures for managing open cases under the
           Headquarters workers' compensation program; and,



                                   @    Pr~ntedwrth soy ink on recycbd paper
           Developed and implemented performance measures to assess the Headquarters
           workers' compensation program.

The President's Council on Integrity and Efficiency (PCIE), of which this office is a member, is
currently reviewing aspects of the FECA program at a number of Federal agencies. The data
developed during this review and reflected in the attached report, will be considered as part of
any government-wide findings associated with the PCIE's effort.

MANAGEMENT REACTION

Management concurred with the findings and recommendations in our draft report and identified
specific corrective actions to be taken. Management's comments, which are provided in their
entirety in Appendix B of the report, were responsive to our recommendations.

Attachment

cc:    Deputy Secretary
       Acting Administrator, National Nuclear Security Administration
       Acting Under Secretary of Energy
       Under Secretary for Science
       Chief of Staff
       Chief, Office of Human Capital Management (HR- 1)
       Director, Office of Internal Review (CF- 1.2)
       Director, Policy and Internal Controls Management (NA-66)
Management of the Workers’ Compensation Program at
Department of Energy Headquarters


TABLE OF
CONTENTS
                 OVERVIEW

                 Introduction and Objective ..…………………………….. 1

                 Observations and Conclusions ………………………… 2


                 DETAILS OF FINDINGS

                 File Maintenance …..…………………………………….. 3

                 Case Monitoring….....……………………………………. 3

                 Written Policies ...………………………………………… 4

                 Performance Measures …….…………………………… 5


                 RECOMMENDATIONS ………………………………...            6


                 MANAGEMENT COMMENTS ………………………… 6


                 INSPECTOR COMMENTS ……………………………..           6


                 APPENDICES

                 A. Scope and Methodology …………………………….      7

                 B. Management Comments ……………………………         8
Overview

INTRODUCTION    The Federal Employees’ Compensation Act (FECA) provides
AND OBJECTIVE   medical and salary benefits to Federal civilian employees who
                suffer work-related injuries or illnesses that prevent them from
                working. The FECA program pays for medical (and associated
                travel) expenses related to employees’ injuries or diseases,
                provides wage compensation until they can return to work in either
                their original positions or a suitable alternative position, and covers
                vocational rehabilitation. The basic rate of compensation for
                injured employees with no dependents is 66.67 percent of gross
                wages, increasing to 75 percent if employees have one or more
                dependents. All workers’ compensation benefits are tax free, and
                there is no mandatory retirement age for employees collecting
                benefits.

                The Department of Labor’s (Labor’s) Office of Workers’
                Compensation Program administers the FECA program—allowing
                or denying claims, paying benefits, and charging benefit costs back
                to a claimant’s agency for reimbursement. Thus, FECA costs are
                borne by the employing agency—not Labor. Besides bearing costs
                of the program, individual agencies are responsible for providing
                Labor with pertinent details to inform its decisions about the merits
                of a claim, for monitoring the status of their workers’
                compensation recipients, and for bringing employees back to work
                as soon as appropriate.

                During the most recent chargeback year (July 1, 2005, through
                June 30, 2006), the Department of Energy (DOE) paid
                approximately $10.2 million in workers’ compensation benefits, of
                which $2.2 million comprised workers’ compensation benefits paid
                to 62 Headquarters employees on the FECA periodic rolls.
                Employees on the periodic rolls are the long term cases where
                medical evaluations indicate that disability will continue for at
                least 60 days. The following chart reflects the annual FECA cost
                for the DOE Headquarters and key field elements.




Page 1                                     Management of the Workers’
                                           Compensation Program at
                                           Department of Energy Headquarters
                                     Department of Energy Workers' Compensation Benefits Paid
                                                    July 1, 2005 – June 30, 2006

                       $4,000,000
                                                                                           TOTAL FECA COST
                                                                                              $10.2 Million
                       $3,500,000

                       $3,000,000                                                     Bonneville Power Administration


                       $2,500,000                                                     DOE Headquarters


                       $2,000,000                                                     Western Area Power Administration

                       $1,500,000                                                     Albuquerque Operations Office

                       $1,000,000                                                     Other

                         $500,000

                                $0




                   The DOE Headquarters workers’ compensation program is
                   managed by the Office of Human Resource Services, Employee
                   WorkLife Center (EWLC).

                   The objective of this inspection was to determine whether EWLC
                   was effectively managing the DOE Headquarters workers’
                   compensation program.

OBSERVATIONS AND   We concluded that EWLC did not effectively manage the DOE
CONCLUSIONS        Headquarters workers’ compensation program and that several
                   aspects of the program needed improvement. Specifically, we
                   found that EWLC:

                   •     Did not maintain adequate records for many of the cases that
                         we reviewed. For example, there were no files for 4 of the 19
                         cases we reviewed;

                   •     Did not adequately monitor its long term cases. For example,
                         we identified two long term cases where, based on a
                         retrospective view, it was our judgment that the employees
                         should have been returned to full-time work status; one case
                         where the employee’s return to work status was unknown; and
                         another case where an employee was overcompensated by
                         $2,250 for a dependent child;

                   •     Did not have written policies or procedures for managing open
                         cases under the DOE Headquarters workers’ compensation
                         program; and,

                   •     Did not have performance measures to assess its management
                         of the DOE Headquarters workers’ compensation program.


Page 2                                                        Observations and Conclusions
Details of Findings

FILE MAINTENANCE      We found that EWLC did not maintain adequate records for many
                      of the cases that we reviewed. We requested case files for 19
                      employees currently receiving FECA benefits; however, EWLC
                      only had files for 15 of the employees. Five of the 15 case files
                      contained only information predating 1993, while other files had
                      gaps of several years in information. For example, one case file
                      had no documentation to cover the 27-year period from 1976 to
                      2003. We observed that, in general, the case files that we reviewed
                      were unorganized and incomplete. Without complete and up-to-
                      date files, DOE cannot adequately monitor these cases.

                      Guidance issued by Labor includes Publication CA-810, Injury
                      Compensation for Federal Employees, a handbook for employing
                      agencies to use as a guide for managing their workers’
                      compensation programs. Publication CA-810 encourages agency
                      personnel responsible for managing their workers’ compensation
                      program to establish a recordkeeping system that will enable the
                      agency to maintain copies of claim forms, medical reports,
                      correspondence with Labor, and other materials related to each
                      compensation claim in an orderly fashion. Publication CA-810
                      also states that agencies should obtain medical information from
                      Labor or the employees to allow agency personnel to assess
                      potential return to regular, light, or limited duty.

CASE MONITORING       We found that EWLC did not adequately monitor its long term
                      cases. For example, we identified two long term cases where,
                      based on medical documentation in Labor’s files it appeared that
                      the employees should have been returned to full-time work status;
                      one case where the employee’s return to work status was unknown
                      and another case where an employee was being overcompensated
                      for a dependent child. Without active engagement with Labor
                      personnel, claimants and their supervisors, long-term cases may
                      continue to remain on the Department’s compensation rolls with
                      little hope of rehabilitation and/or return to work.

                      Publication CA-810 states that agency personnel responsible for
                      managing workers’ compensation cases can obtain updated
                      information from Labor or the injured employee to assess the
                      potential for return to work. Although CA-810 allows EWLC
                      specialists to review employee workers’ compensation case files at
                      the appropriate Labor District Office, including medical and
                      dependent status documentation, EWLC officials advised us that
                      they had only reviewed one of their open cases at Labor and that
                      they do not monitor Labor’s activities regarding DOE
                      Headquarters cases.




Page 3                                                              Details of Findings
                   We determined during our field work in July 2006 that one of the
                   long term case employees continued to work only part-time, even
                   though the employee’s doctor stated in June 2006 that the
                   employee was capable of performing full-time work. EWLC
                   officials were not aware of this development until we brought it to
                   their attention. In another case, an employee had not been returned
                   to work, even though the employee’s doctor stated in May 2004
                   that the employee was capable of performing work on a full-time
                   basis. If this employee’s case had been better monitored and
                   managed, it appeared likely that the individual would have been
                   returned to work about two years prior to the conduct of this
                   inspection, saving DOE at least $31,000.

                   We determined that EWLC specialists were not appropriately
                   monitoring a case where the employee’s return to work status was
                   unknown. For example, in one case we reviewed, a physician did
                   not provide sufficient information on the employee’s Work
                   Capacity Evaluation form (submitted in February 2006) for EWLC
                   specialists to make a determination regarding the employee’s
                   return to work status. If this case was being properly monitored,
                   EWLC specialists should have requested that the employee’s
                   physician complete a Fitness for Duty form to assess the
                   employee’s return to work capacity.

                   We further determined that a DOE employee was
                   overcompensated $2,250 for the last two years because the
                   employee was claiming a child who no longer met the FECA
                   dependent status requirements. Although it is Labor’s primary
                   responsibility to monitor and review dependent status changes,
                   DOE has an interest in ensuring that only appropriate benefits are
                   paid. Accordingly, EWLC should monitor all aspects of the
                   workers’ compensation cases. In the absence of our review of this
                   file, it is unclear when or if this error would have been discovered.
                   We notified Labor of this overpayment and were subsequently told
                   that Labor took action to ensure that the employee’s pay was
                   appropriately adjusted.

                   We noted that EWLC was developing a new electronic tracking
                   system for its cases. We believe that developing and integrating
                   this new electronic data tracking system into EWLC recordkeeping
                   is a positive step that has the potential to improve case
                   management.

WRITTEN POLICIES   We found that EWLC did not have written policies or procedures
                   for managing open cases under the DOE Headquarters workers’
                   compensation program. Although agencies are not required by



Page 4                                                            Details of Findings
              FECA to have written policies to implement their workers’
              compensation programs, we conducted a survey of nine other
              Federal agencies and determined that all nine had written policies
              or guidelines implementing their workers’ compensation program.

              We believe that EWLC’s lack of written policies and procedures
              was at least partially the cause of the problems disclosed during
              this inspection.

PERFORMANCE   We found that EWLC did not have performance measures
MEASURES      to assess its management of the DOE Headquarters workers’
              compensation program. The Government Performance and Results
              Act of 1993 requires that each agency “establish performance
              indicators to be used in measuring or assessing the relevant
              outputs, service levels, and outcomes of each program activity.”
              Additionally, DOE has implemented a new performance
              management system that emphasizes individual employee
              accountability for the accomplishment of mission objectives
              reflected in performance plans. We determined that EWLC
              specialists’ performance standards did not address their duties
              related to workers’ compensation. Thus, there was little or no
              personal accountability for duties associated with this program.
              We believe that meaningful performance measures for the EWLC
              and related performance standards for its employees would help to
              ensure that the workers’ compensation program is effectively
              managed.




Page 5                                                      Details of Findings
RECOMMENDATIONS   We recommend that the Chief, Office of Human Capital
                  Management, ensure that the Employee WorkLife Center:

                  1. Develop and implement written policies that establish
                     responsibilities and procedures for managing and administering
                     the DOE Headquarters workers’ compensation program,
                     including case management and file maintenance; and,

                  2. Develop performance measures and employee standards that
                     encourage effective management of the DOE Headquarters
                     workers’ compensation program.

MANAGEMENT        Management concurred with our findings and recommendations
COMMENTS          and identified corrective actions. The comments are included in
                  their entirety in Appendix B.

INSPECTOR         We found management’s comments to be responsive to our report
COMMENTS          recommendations.




Page 6                                   Recommendations
                                         Management and Inspector Comments
Appendix A

SCOPE AND     We conducted fieldwork at the Department of Labor, Office of
METHODOLOGY   Workers’ Compensation Program, District 25 Office, located in
              Washington, D.C., and the DOE EWLC, located at Headquarters.
              We interviewed Federal officials at DOE and the Department of
              Labor and reviewed relevant documents and records at those
              locations.

              During the 1990’s, the Office of Inspector General conducted
              several reviews of workers’ compensation at DOE. These reviews
              included the Bonneville Power Administration and selected
              management and operating contractor workers’ compensation
              programs.

              As part of our review, we evaluated EWLC’s implementation of
              the “Government Performance and Results Act of 1993” regarding
              the workers’ compensation program at Headquarters. This
              inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency (PCIE). Additionally, the results of this
              inspection may be included in the PCIE’s joint project on workers’
              compensation reviews.




Page 7                                               Scope and Methodology
Appendix B




Page 8       Management Comments
Appendix B      (continued)




Page 9       Management Comments
Appendix B      (continued)




Page 10      Management Comments
                                                                    IG Report No. DOE/IG-0769

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
